OFFICE OF INSPECTOR GENERAL

AUDIT OF THE MILLENNIUM
CHALLENGE CORPORATION’S
CONTROLS OVER THE USE OF
PREMIUM CLASS TRAVEL

AUDIT REPORT NO. M-000-14-001-P
DECEMBER 17, 2013




WASHINGTON, D.C.
Office of Inspector General



December 17, 2013



Ms. Chantale Y. Wong
Vice President, Department of Administration and Finance
and Chief Financial Officer
Millennium Challenge Corporation
875 15th Street, NW
Washington, DC 20005

Dear Ms. Wong:

This letter transmits the Office of Inspector General’s report on the Audit of MCC’s Controls
Over the Use of Premium Class Travel (Report No. M-000-14-001-P). In finalizing the report, we
considered your written comments on our draft report and included those comments in their
entirety in Appendix II of this report. The report contains two recommendations. Although MCC
has made management decisions on those two recommendations, we disagree with them. We
encourage MCC to revisit its management decisions and revise them to identify a more cost-
effective solution.

We appreciate the cooperation and courtesy extended to our staff during this audit.


                                            Sincerely,

                                               /s/

                                            Robert L. Fry
                                            Acting Deputy Assistant Inspector General
                                            for Audit
                                            Millennium Challenge Corporation




Millennium Challenge Corporation
1401 H Street, NW
Suite 770
Washington, DC 20005
http://oig.usaid.gov
CONTENTS
Summary of Results ................................................................................................................. 1

Audit Finding ............................................................................................................................. 3

     MCC Did Not Justify Domestic Premium Class Travel ........................................................... 3

Evaluation of Management Comments.................................................................................... 5

Appendix I—Scope and Methodology ..................................................................................... 6

Appendix II—Management Comments .................................................................................... 8

Appendix III—Travel Approval Forms.................................................................................... 11
SUMMARY OF RESULTS
The Federal Travel Regulation (FTR) governs the use of all official government travel, including
the use of premium class travel, defined as first class or business class air travel. The FTR
authorizes premium class travel under certain circumstances:

       Flight time, including stopovers and plane changes, exceeds 14 hours.
       The traveler has a medical disability.
       The traveler uses nonfederal funds to pay for the flight.
       Foreign air carriers do not provide adequate health and sanitation standards.
       The government saves money on the trip.
       Security concerns rule out travel in coach class.

The Millennium Challenge Corporation (MCC) included the FTR in its Temporary Duty Travel
Policies and Procedures, which outlines controls over the use of premium travel.

In 2007 the Government Accountability Office (GAO) issued an audit1 of the use of premium
class travel by all federal agencies, including MCC. GAO found that “although MCC employees
met the FTR’s 14-hour rule, trips were not authorized or justified as required.” In addition, GAO
found several internal control weaknesses and offered recommendations to strengthen MCC’s
policies.

The Office of Inspector General (OIG) conducted this audit to determine whether MCC has
since implemented adequate internal controls to prevent improper use of premium class travel.
OIG found that MCC has implemented generally adequate internal controls over the use of
premium travel. These internal controls include a comprehensive travel policy2 and the
segregation of duties for the review and approval of travel authorizations. Of the $1.1 million
MCC spent on air travel from October 1, 2012, to February 28, 2013, $691,000 covered air
travel that included at least one premium class segment.

OIG identified one internal control weakness: MCC did not justify using domestic premium class
travel as required by the organization’s policy (page 3).

Section 5.13.2(6) of MCC’s Temporary Duty Travel Policy and Procedures states:

    Domestic segments of an approved OCONUS [Outside the Continental United States]
    business class trip will be booked in…coach…when available. This [requirement] will not
    be applicable when the calculated difference in the segment ticket price is less than
    $250 or the business class exception was granted for reasons of medical
    accommodation, health, sanitation, or security.

Because MCC did not verify a cost comparison, the $102,000 it spent on flights with at least one
premium class segment may not have been allowed under MCC’s travel policy.



1
  GAO, Premium Class Travel: Internal Control Weakness Governmentwide Led to Improper and Abusive
Use of Premium Class Travel, GAO-07-1268, September 28, 2007.
2
  MCC, Temporary Duty Travel Policy and Procedures, July 17, 2012.


                                                                                               1
To address this concern, the report recommends that MCC’s Vice President for Administration
and Finance:

1. Revise the Millennium Challenge Corporation’s Temporary Duty Travel Policy and
   Procedures to require its travel agents to document cost comparisons of coach and
   premium class tickets for the domestic legs of the trip prior to approval for travel (page 3).

2. Revise its travel approval form to document its cost comparison of coach and premium class
   tickets for the domestic legs of the trip prior to approval for travel (page 4).

Detailed findings appear in the following section, and Appendix I contains information on the
scope and methodology. Management comments are included in their entirety in Appendix II,
and our evaluation of management comments is included on page 5 of the report.




                                                                                               2
AUDIT FINDING
MCC Did Not Justify Domestic
Premium Class Travel
Section 5.13.2(6) of MCC’s Temporary Duty Travel Policy and Procedures states:

       Domestic segments of an approved OCONUS [Outside the Continental United
       States] business class trip will be booked in…coach…when available. This
       [requirement] will not be applicable when the calculated difference in the
       segment ticket price is less than $250 or the business class exception was
       granted for reasons of medical accommodation, health, sanitation, or security.

Furthermore, GAO’s Standard for Internal Control in the Federal Government states:

       transactions should be promptly recorded to maintain their relevance and value
       to management in controlling operations and making decisions. Record keeping
       covers the initiation and authorization of a transaction through its final
       classification in summary records. In addition, records should be readily available
       for examination.

Of the 39 trips made by MCC staff and reviewed by OIG, 12 included first-class segments for
travel within the continental United States. MCC officials could not demonstrate that the
Corporation had compared costs of coach and premium class tickets for the domestic legs of
the trip. An MCC official explained that MCC’s travel agency routinely does the comparison
during ticket booking. The official also explained that, by combining premium class domestic
segments and premium class international segments in one ticket purchase, MCC realizes
savings over the use of coach domestically.

MCC does not have a policy nor a place on the travel approval form requiring its travel agents to
document the compared costs of coach and premium class tickets for the domestic legs of the
trip. It uses the travel approval form to document coach, premium class, or a combination of
travel class options for each trip for comparison. However, forms for 12 of the 39 trips reviewed
by OIG (31 percent) did not show cost comparisons of coach and premium class tickets for
domestic air travel. The forms (some of which appear in Appendix III) did show numerous other
comparisons: coach lowest refundable; coach refundable and upgradable; coach restricted—fee
for change or refund; and coach nonrefundable—fee for changes.

Without documentation, OIG was unable to confirm that the use of premium travel complied with
guidance. More than $102,000 in flights that included premium class domestic segments may
not have been allowed under MCC’s policy.

For these reasons, we make the following recommendations.

       Recommendation 1. We recommend that the Millennium Challenge
       Corporation’s Vice President of Administration and Finance revise the Millennium
       Challenge Corporation’s Temporary Duty Travel Policy and Procedures to




                                                                                               3
require its travel agents to document cost comparisons of coach and premium
class tickets for the domestic legs of the trip prior to approval for travel.

Recommendation 2. We recommend that the Millennium Challenge
Corporation’s Vice President of Administration and Finance revise its travel
approval form to document its cost comparison of coach and premium class
tickets for the domestic legs of the trip prior to approval for travel.




                                                                                4
EVALUATION OF MANAGEMENT
COMMENTS
MCC provided written comments on the draft report that are included in their entirety in
Appendix II. Responding to the finding, MCC stated that the cost of domestic premium class
flights in question was $4,000. However, because MCC did not provide this cost information
when OIG conducted fieldwork, OIG did not audit this amount. As a result, OIG left the cost of
the 12 trips totaling $102,000 in its finding and clarified that each trip included at least one
domestic premium class segment. As for the recommendations, MCC disagreed with both of
them. We encourage MCC to revisit its management decisions and revise them to identify a
more cost-effective solution.

Recommendation 1. MCC disagreed with OIG’s recommendation to revise the Millennium
Challenge Corporation’s Temporary Duty Travel Policy and Procedures (Travel Policy) to
require its travel agents to document cost comparisons of coach and premium class tickets for
the domestic legs of the trip prior to approval for travel. MCC disagrees with the
recommendation because MCC officials believe it would be costly to implement.

Although OIG acknowledges MCC’s management decision, we disagree with it. MCC’s travel
policy requires that domestic premium class segments of approved business trips outside the
continental United States be booked in coach unless a cost comparison shows the difference is
less than $250. OIG could not confirm MCC’s compliance with this policy because MCC did not
have evidence that cost comparisons had been done before premium class was approved.
MCC’s travel approval form could be used for this purpose if the travel policy were revised to
require documentation.

Recommendation 2. MCC disagreed with OIG’s recommendation to revise its travel approval
form to document its cost comparison of coach and premium class tickets for the domestic legs
of the trip prior to approval for travel. MCC stated that the travel approval form currently has
room for additional text such as cost comparisons for coach and premium class travel tickets.

Although OIG acknowledges MCC’s management decision, we disagree with it. None of the
trips tested in OIG’s sample included comments or showed that a cost comparison of domestic
premium class segments had been completed per MCC’s policy (as evidenced in Appendix III).
Revising the form to require documentation of MCC’s comparison would provide evidence of
what MCC officials stated their travel agents do when conducting other cost comparisons.




                                                                                              5
                                                                                     Appendix I



SCOPE AND METHODOLOGY
Scope

We conducted this audit in accordance with generally accepted government auditing standards.
We planned and performed the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions in accordance with our objective. We believe
that the evidence obtained provided that reasonable basis.

The purpose of this audit was to determine whether MCC implemented internal controls to
prevent improper use of premium class travel. We conducted this audit to follow up on findings
in the 2007 GAO report that identified improper use of premium class travel by MCC. OIG
audited premium class travel taken between October 1, 2012, and February 28, 2013. We
conducted our fieldwork at MCC headquarters in Washington, D.C., from January 17 to
August 5, 2013.

In planning and performing the audit, we reviewed premium class tickets purchased from
October 1, 2012, through February 28, 2013, totaling $1.1 million. We reviewed supporting
documentation for premium class travel, including E2 travel authorization forms, MCC’s travel
approval forms, airline itineraries, travelers’ time sheets, the Federal Travel Regulations, and
MCC’s Temporary Duty Travel Policy and Procedures.

We examined the internal control environment and reviewed relevant controls over the use of
premium travel. Specifically, we reviewed MCC’s travel authorization forms, E2 travel
authorization history (to ensure a managing director or higher approved the forms), and controls
to prevent E2 approvers’ being able to approve their own transactions. We reviewed travelers’
time sheets to confirm they reported to work the next day or sooner in accordance with the FTR.

Methodology
To answer the audit objective, we:

   Reviewed the Federal Travel Regulations and MCC’s travel policy to determine the criteria
   for premium class travel.

   Interviewed MCC officials to determine what controls MCC implemented for using premium
   class travel.

   Judgmentally selected 40 trips from MCC’s travel agent’s system that included at least one
   leg of premium class air travel purchased between October 1, 2012, through
   February 28, 2013 totaling $691,000. We subsequently removed one trip from our sample
   because it was for premium class travel by train. The results cannot be projected to the
   population.

   Analyzed trips in our sample to ensure compliance with the Federal Travel Regulations and
   MCC’s travel policy for the use of premium class travel.




                                                                                              6
                                                                                   Appendix I


•   Judgmentally selected approvers from the E2 travel system who had the capability to
    approve their own travel transactions. We reviewed their approval history in E2 for trips
    taken between October 1, 2012, through March 31, 2013, to determine if they approved their
    own travel transactions. The results cannot be projected to the population.




                                                                                            7
                                                                                         Appendix II



MANAGEMENT COMMENTS


DATE:          November 4, 2013

TO:            Robert Fry
               Acting Deputy Assistant Inspector General
               Office of Inspector General
               Millennium Challenge Corporation

FROM:          Eric Redmond /s/
               Assistant Deputy Chief Financial Officer
               Department of Administration & Finance
               Millennium Challenge Corporation

RE:            MCC’s Management Response to the OIG draft report on the “Audit of the
               Millennium Challenge Corporation's Controls over the Use of Premium Class
               Travel”

MCC appreciates the opportunity to respond to the OIG draft report on the “Audit of the
Millennium Challenge Corporation's Controls over the Use of Premium Class Travel.” MCC’s
specific responses to the two recommendations noted in the draft report are detailed below.

Before concentrating on these recommendations, MCC would like to address the summary of
results beginning with MCC’s implementation of the recommendations stemming from the
GAO’s Report on Premium Class Travel dated September 28, 2007. As the OIG notes, the GAO
issued MCC a management letter in 2008 which included 3 recommendations. MCC is
disappointed by the OIG’s characterization that MCC “has implemented generally adequate
internal controls over the use of premium travel” when, in some instances, MCC has exceeded
the GAO recommendations. For example, MCC now requires flight time in excess of 19 hours –
not the 14 hours required by the Federal Travel Regulations (FTR) – in order for travelers to use
Premium Class Travel.

MCC also disagrees with the OIG’s assertion that not justifying “domestic premium class travel”
is an internal control weakness. According to the GAO’s Standard for Internal Control in the
Federal Government, “Internal control should provide reasonable assurance that the objectives of
the agency are being achieved in the following categories: effectiveness and efficiency of
operations including the use of the entity’s resources; reliability of financial reporting, including
reports on budget execution, financial statements, and other reports for internal and external use;
and compliance with applicable laws and regulations.” Foremost, MCC’s Temporary Duty


                                                                                                   8
                                                                                       Appendix II


Travel Policy and Procedures is in compliance with FTR §301-10.123 When may I use other
than coach-class airline accommodations? which does not distinguish between domestic and
international segments. With respect to the reliability of MCC’s reporting, MCC files an annual
report with the GSA as required by FTR §300-70.100 Who must report use of other than coach-
class transportation accommodations?. Finally, under the current policy, MCC’s travel office
reviews all travel itineraries for potential cost savings to include the booking of coach class
accommodations for an approved business class itinerary. Requiring the MCC travel agency to
document cost comparisons of coach and premium class will end up costing MCC $29.50 or
$67.50 more per transaction, an inefficient use of the agency’s resources. In sum, MCC feels it
has implemented “a system that provides reasonable assurance that premium class travel is
properly authorized and justified” per the GAO’s management letter.

Finally, the OIG’s statement, “flights that cost more than $102,000 may not have been allowed
under MCC’s travel policy” is misleading. The OIG’s focus of these recommendations is the use
of premium class travel on the domestic segment of the trip. The $102,000 reflects the total cost
of each trip. A more accurate statement is “approximately $4,000.00 in domestic premium class
travel may not have been allowed under MCC’s travel policy.”

MCC’s Comments on the Audit Findings

In preparing our response to the draft report, MCC reviewed the 12 first-class domestic segments
identified by the OIG.

                                                                             Base
                                                                            Coach
                                                                              Fare
 Class of                                            Travel     Premium       W/O
 Service            Origin          Destination       Date        Fare       Taxes    Savings
 First      Washington DC          Los Angeles       3/2/2013   $1,088.52   $285.00   $803.52
            Baltimore/Washington
 First      Intl                   Atlanta           11/10/12    $199.22    $177.00    $22.22
                                   Chicago-
 First      Washington DC          O'Hare           3/17/2013    $210.36    $299.00   ($88.64)
 Business   Washington DC          Atlanta           11/11/12    $270.38    $187.00     $83.38
                                   Washington
 First      Atlanta                DC               11/1/2012    $341.57    $187.00   $154.57
 First      Washington DC          Detroit-Metro    2/15/2013    $238.53    $299.00   ($60.47)
                                   Washington
 First      Atlanta                DC               2/28/2013    $322.52    $187.00   $135.52
                                   Chicago-
 Upgrade    Washington DC          O'Hare          10/10/2012    $200.72    $131.00    $69.72
 First      Washington DC          Atlanta          11/3/2012    $310.31    $187.00   $123.31
                                   Washington
 First      Atlanta                DC                11/14/12    $310.31    $187.00   $123.31
 First      Detroit                Atlanta           3/4/2013    $235.15    $171.00    $64.15
 First      Washington             Detroit           10/20/12    $376.83    $299.00    $77.83

While MCC acknowledges that a cost savings was not recognized on one leg from Washington,
DC to Los Angeles, our current internal controls provide a reasonable assurance that MCC will


                                                                                                 9
                                                                                     Appendix II


book domestic segments of an approved OCONUS business trip in coach unless the calculated
difference in the segment ticket price is less than $250 as per section 5.13.2(6) of MCC’s
Temporary Duty Travel Policy.

MCC’s Management Responses to the Draft Audit

OIG Recommendation 1: We recommend that the Millennium Challenge Corporation’s
Vice President of Administration and Finance revise the Millennium Challenge
Corporation’s Temporary Duty Travel Policy and Procedures to require its travel agents
to document cost comparisons of coach and premium class tickets for the domestic legs
of the trip prior to approval for travel.

MCC’s Management Response: MCC does not concur with this recommendation.
Foremost, the OIG’s recommendation is not required by the Federal Travel Regulations
(FTR). Although MCC enforces stricter requirements than the FTR for the use of other
than coach-class travel (e.g. 19-hour versus 14 hour trips, respectively), MCC has
documented that implementing this particular OIG recommendation will cost the agency
money. Furthermore, after reviewing the OIG’s sample, MCC feels it has implemented
internal controls that provide reasonable assurance that premium class travel is properly
authorized and justified. This constitutes MCC’s management decision and final action.


OIG Recommendation 2: We recommend that the Millennium Challenge Corporation’s Vice
President of Administration and Finance revise its travel approval form to document its cost
comparison of coach and premium class tickets for the domestic legs of the trip prior to approval
for travel.

MCC’s Management Response: MCC does not concur with this recommendation. Section 2 of
the Travel Approval Form currently has data fields available for the travel agency to “Enter”
Text,” including cost comparisons of coach and premium class tickets. MCC considers this
recommendation closed.

This constitutes MCC’s management decision and final action for recommendations 1 and 2.

If you have any questions or concerns, please contact Monique Ricker with MCC’s Office of
Quality Assurance at 202-521-7235 or rickermt@mcc.gov.




                                                                                              10
                                                                                                                                                              Appendix III


                                                            Travel Approval Forms

Example 1. This form does not show a cost comparison between premium and coach class
airfare for the domestic segments of the trip. It only shows the cost comparison between coach,
premium class, or a combination of the two classes of air travel for an entire trip.
Ex




                                                                  TRAVEL APPROVAL FORM



              *
           MILLENNiUM
           OtAl.l.tl«llOOUOlAnor..
           ~N""O   .,A,,''''' U'.'CA
                                              Total Estimated         1$14,463 .00                           1
                                              INSTRUCTIONS; A TAF is considered complete when signed by the Traveler's MD       Of COTR and the ReO
                                              for each destination country. Separate written Justification from the traveler's MD Is requIred fOf TAF's
                                              completed less than two weeks from the travel date In order to expla in the de lay.
                                              Travel submitted less than 1 week prior requires VP or DVP Justification.
                                              Completed TAF must be emoiled to MCCfrove/@mcc.gov with any jvstificotion as req(Jired above.


                                       The coach fare must be used for all CONUS and OCONUS fli ghts of less than 14 hours.
                   Business class and/or premium coach eligi bility will be determined by MeeTravel according to the MeC Ca bin Class
                                                           Guidelines with opt ions provided in Section 2.



              Travel ers




        -~~EB~,::::::==:::::--====:;--,                                                           (Optional) Activate The International Blacllberry
                                                                                                  plan(s) for my MCCi5Sued POA while on travel. DO
                                                                                                   NOT activate these features i!you will be using II local
                                                                                                   SIM card or cell phone. Monthly rates(s), plus U50QII
                                                                                                  Jees appfy WiTh The voice plan; contact the help desk
                                                                                                  for current raters} and availobiliry.   D
              Section 2-SendTAFto
              Tick et Type




              Cabin Class Outbound         " B:1";::::
                                                  ' ;~' es=,_ _ _ _ _ _ _-I, Cabin Cla ss Inbound [IB~"'
                                                                                                      ';'i;''''
                                                                                                           ;;;';'=c=c=c;:==c=c~~L-,
              ca bin Class Mid-bound 1 If Applicable Select..                   cabin Class Mid-bound 2          IlfApplicable Select. .
              Justi fication requi red if ticket type requested by
              travele r Is great than lowest quoted fa re

              Section 3 - Certification and Approvals
              Travele r Ce rtification       IZl
              By checking this Traveler Certification checkbox, I certify that;
                  (1) Agency mission cannot be a ccomplished by other means that are less expensive than travel,
                  (2) Travel cannot be deferr ed to a later date; delay of trave l is not optimal to accomplish the objectives of the trip.

              Approving Offi cia l Certificatio n
              By s ignin g t his do cu ment, I certify that;
                   (1) Agencv mission cannot be accomplished by other means that are less e)(pensive than travel,
                   (2) Travel ca nnot be deferred to a later date; delay of travel is not optimal to accomplish the objectives of the trip.
                   (3) If multiple tra ve le rs are included as part of a proposed trip, I have determined that the participation of each
                        trave le r is mission necessary (may not be app licable in a ll circumstances).




                                                                                                                                                                       11
                                                                                   Appendix III


Example 3. This form does not show a cost comparison between premium and coach class
airfare for the domestic segments of the trip. It shows the cost comparison between coach,
premium class, or a combination of the two classes of air travel for an entire trip.




                                                                                             13
                                                                                                                                                                                 Appendix III


Example 3. This form does not show a cost comparison between premium and coach class
airfare for the domestic segments of the trip. It shows the cost comparison between coach,
premium class, or a combination of the two classes of air travel for an entire trip.

                                                                  TRAVEL APPROVAL FORM




             *
           MILLENN i u M
           Qw.uJOCII~noH
           ~""D   " ..., 0"   ._o,c.
                                             To tal Est imated       1'3'06.20                                  1
                                             INSTRUCTIONS: A TM Is considered comp lete when slsned by the Traveler's MD or COlF! and the RCO
                                             for each deulna t ion country. Separate w rlu en Justification from the traveler's MO Is reqlJlred for TAF's
                                             completed less than two weeks from the travel da te In o rder to uplaln the delay.
                                             Travel submitted less than 1 week prior requires VP or DVP Justification.
                                              u,mpleted TAFmust be emalled to MCCTravel@mcc,gov withanyjustificationosreqlJire<iabove.

                                 The coach fare must be used for all CONUS and OCONUS fli ghts of less than 14 ho urs.
                  Business class and/or pr emium c.oach eligibility wi ll be determ ined by MCC Travel according t o th e M CC Ca bin Class
                                                    Guidelines with options provi ded in Sec tion 2.


             Sectlon~
                                       I


        -
             Travelers Nam e                                                   I C;t            I             I Food T                              I                    I
             Td p Oe"iI,
                            Z,mbl,
                                                   il                      Couo"V 3
                                                            Select" Eol., ISelect" Eote'
                                                                                                     Aoo"Il"" du"ogTDV                        10
                       Code 2610
                     O"e                     ""om"
                                                                                                 I   Lea .... e Dates
                                                                                                                          II                        II                       I
             Re'um O"e
             Ai,f"e            "096.20
                                             ""712tl"                                                (Oplk>".,I) Activor. the im,m<J!lonai 8/ad/nrry
                                                                                                     plon(s/!or I7l)I MCCls.wd POA whl. on t,a.,.l. 00
                                                                                                     NOT actj",,!. IMs, !,a//Jr,s I/yoll wj// IH wing a local
             ladglog           ""'00                                                                 s/M am/orCIN "hOM. Monthly rat,./s), pllJ1 w~
             M&IE                             $700.00                                                / " . oPPIot will> 1/>1 volA plaf1; tonfoct the /lttl" d,s.
                  I                           '300.00                                                f or o.ur.nr raf~S) Qnd QIIQII"bllity.   [ZJ
             Reo'" C"                           "'.00
                                                                                                                          ITMC Comments
             Section 2-Send TAF t o                                  ,,,,, .. rr ro n , '   10' AI" .." Quote I
             Ti cket Typ e       :~~,::~.:~~::.:.o      ..,,.;"         '''' P                Price                                    Ti"e' bV
                                                                                                                                        O"e                  p:::::~ -
             Co,," I       ,"od
             Cooc" Re"""ed - Fee fo, c"ooge 0' ,efuod
                                                                                             '''''.90
                                                                                               NIA
                                                                                                                                        ''''''''                   No~



             Cooc" I           , - Fee fo' C"oo,es                                            ~
                i                                                                                                                                                  N,~

            En'e, Q' Selec' r~xt
                                                                                                                                        ''''''''
            En'e,o, I
            En' .. 0, Select rex'
             Ca bin Cla$~ Ou t bound IBusiness                                   Ca bin Class In bo und ICoaCh                                           1
             Ca bin Oass Mid-bound 111f Applicable Select                     _I Cabin Class Mid-bound 2           Ilf Applicable Select.                      I
             Justifica ti on required if ti cket type requeS~'e~d~b"::::-::="":-::=::-:"':::=-==::::-:::-:-::===::--==:::::-"'::-:::-::-::=:-::::-t
             traveler Is grea t th an lowest quot ed fare OUIbound hive! Is In e~eess 0117 hours and I will be repcw1lng to work with in 24 hoo.r s of arrIve i. Per
                                                              the hive! pOlley. t ha...e select&<! B-da55 outbOUnd Md coe.Ch dan return.

             Section 3 - Certification and Approva ls
             Traveler Certification          [l]
             By checking this Trave ler Certification checkbox, I certify th at;
                 (1) Agency mission cannot be accomplished by o ther means that are less expensive than travel,
                 (2) Travel cannot be de ferred to a later date; delay of travel is not o ptim al to accomplish the objectives of the trip.


             Approving Official Certification
             By signing this document, I ce rt ify that;
                 (1) Agency mission cannot be acco mplished by other means that are less e~penslve than tra ve l,
                 (2) Tr avel cannot be deferred to a later date; delay of travel Is not o ptimal t o actomplis h the objectives of the trip.
                 (3) If multiple travelers are Incl uded as part of a proposed trip, I ha ve determi ned that th e participation of each
                     travel er is mission necessary (may not be applicable in all circumstance s).




                                       I I




                                                                                                                                                                                          13
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           http://oig.usaid.gov
